                 The Tax Exempt and Government Entities
                Division’s Toll-Free Call Site Accuracy Rate
                and the Effectiveness and Efficiency of Call
                     Site Operations Can Be Improved

                                 September 2005

                       Reference Number: 2005-10-166




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                   DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                       September 27, 2005


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION



      FROM:                 Pamela J. Gardiner
                            Deputy Inspector General for Audit

      SUBJECT:              Final Audit Report - The Tax Exempt and Government Entities
                            Division’s Toll-Free Call Site Accuracy Rate and the
                            Effectiveness and Efficiency of Call Site Operations Can Be
                            Improved (Audit # 200510005)

      This report presents the results of our review which evaluated whether the Tax Exempt
      and Government Entities (TE/GE) Division Customer Account Services (CAS) Quality
      Assurance (QA) function provides reliable customer accuracy rates and whether the
      TE/GE Division CAS function effectively uses the QA process as a basis for measuring
      and improving program effectiveness. In addition, we evaluated whether the TE/GE
      Division CAS function Customer Service Representatives (CSR) complied with the
      statutory requirements to properly identify themselves and to prevent unauthorized
      disclosures when responding to customers’ telephone inquiries.
      In summary, the CAS QA function correctly reported all instances of improper disclosure
      and most instances (99.32 percent) of improper employee identification. However, the
      customer accuracy rate for this period was overstated by approximately 6.1 percent
      (78.52 percent reported by the TE/GE Division CAS QA function versus 72.39 percent
      determined by our review). For the additional five inaccurate responses we identified,
      the TE/GE Division CSRs did not follow established procedures or made statements
      that conflicted with written guidance. One significant difference between the TE/GE
      Division CAS QA function’s review and our review was the method of listening to the
      sample of telephone calls. The TE/GE Division CAS QA function reviewed live calls; we
      reviewed the same calls using the contact recording system, which is an automated
      recording system used widely in private industry to monitor customer contacts. This
      technology enabled us to review the telephone calls several times to ensure we
      considered all of the questions and responses and to provide us the opportunity to
                                                        2

research TE/GE Division CAS function procedures and Internal Revenue Service (IRS)
publications for correct responses.
We also determined that CSRs could have provided enhanced customer service to the
callers for seven additional telephone calls. These seven telephone calls do not affect
the accuracy rates but present an opportunity for the TE/GE Division CAS function to
improve service to customers.
Additional actions are also needed to increase the effectiveness and efficiency of the
TE/GE Division CAS toll-free call site operations. Specifically, we determined the
TE/GE Division CAS function should:
•   Compare the actual sample results to the sampling objectives shortly after the
    sampling period has ended to determine if adjustments to the sampling plans are
    needed.
•   Ensure issue codes for customers’ telephone inquiries are entered on the Aspect1
    system.
•   Develop plans to implement program improvements resulting from customer
    satisfaction surveys and monitor whether the changes improved customer
    satisfaction.
We recommended the Director, CAS, TE/GE Division, establish procedures for using
contact recordings in the QA process; ensure the draft probe and response job aid for
responding to customers’ inquiries about how to apply for tax-exempt status under
Internal Revenue Code (I.R.C.) Section (§) 501(c)(3)2 addresses the types of questions
we identified for which enhanced customer service can be provided; and implement a
process for developing probe and response guides that address the common types of
customers’ questions. We also recommended the Director, CAS, TE/GE Division,
establish a coordinated process with the IRS Statistics of Income Division to compare
the actual sample results to the sampling objectives shortly after the sampling period
has ended, ensure issue codes are entered, evaluate the customer satisfaction survey
results, develop action plans to improve service to customers, and monitor whether the
changes resulted in improved customer satisfaction.
Management’s Response: The Commissioner, TE/GE Division, agreed with the
findings and recommendations in the report. The Director, CAS, TE/GE Division,
worked with the Statistics of Income Division contacts to develop a method to use
contact recording beginning October 1, 2005. The Director, CAS, TE/GE Division, has
also developed and shared with employees a job aid for responding to customer’s
inquiries about how to obtain recognition of tax-exempt status under I.R.C. § 501(c)(3),
and in April 2005, an analyst was detailed to the QA function to analyze data and target
topics for providing job aids. In addition, the Director, CAS, TE/GE Division, will


1
  The Aspect Automated Call Distributor’s primary purpose is to direct calls from taxpayers to IRS CSRs for
assistance.
2
  I.R.C. § 501(c)(3) (2004).
                                          3

coordinate monthly with the Statistics of Income Division to compare actual sample
results with sampling objectives to determine if adjustments are needed to the sample
size. TE/GE Division CAS function managers will reemphasize the input of issue codes.
The Director, CAS, has revised the scheduling of employee direct time and
implemented new menu options on the toll-free line to respond to customer satisfaction
results. As an ongoing initiative, the CAS function forwards suggestions for topics or
additional information to be put on the web (irs.gov) for enhancing web usage, and uses
customer satisfaction results during workshops and in the development of the annual
training plan. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
The Reliability of the Telephone Accuracy Rate Can Be Improved,
and Opportunities Exist to Enhance Customer Service............................. Page 4
         Recommendations 1 and 2: ...........................................................Page 9
         Recommendation 3: .......................................................................Page 10

Additional Actions Are Needed to Increase the Effectiveness
and Efficiency of the Customer Account Services Toll-Free
Call Site Operations ................................................................................. Page 10
         Recommendations 4 through 6:.....................................................Page 16

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 21
Appendix III – Report Distribution List ....................................................... Page 22
Appendix IV – Outcome Measures............................................................ Page 23
Appendix V – Management’s Response to the Draft Report ..................... Page 25
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 The Tax Exempt and Government Entities (TE/GE)
Background
                                 Division’s mission is to provide customers top-quality
                                 services by helping them understand and comply with
                                 applicable tax laws and to protect the public interest by
                                 applying the tax law with integrity and fairness to all. The
                                 TE/GE Division Customer Account Services (CAS)
                                 function assists customers of the Employee Plans (EP),
                                 Exempt Organizations (EO), and Government Entities (GE)
                                 functions and oversees the processing of TE/GE Division
                                 customer returns. Toll-free telephone assistance is provided
                                 to TE/GE Division customers nationwide through the
                                 TE/GE Division CAS toll-free call site in Cincinnati, Ohio.
                                 The TE/GE Division CAS toll-free call site assists
                                 customers who need:
                                        •   Confirmation of the status of an application,
                                            including an Application for Recognition of
                                            Exemption Under Section 501(c)(3) of the Internal
                                            Revenue Code (Form 1023), an Application for
                                            Recognition of Exemption Under Section 501(a)
                                            (Form 1024), or an Application for Determination
                                            for Employee Benefit Plan (Form 5300).
                                        •   A determination letter issued by the Internal
                                            Revenue Service (IRS) that an exempt
                                            organization’s application and supporting documents
                                            establish that it qualifies for tax-exempt status or that
                                            an employee plan’s terms conform to the
                                            requirements of Internal Revenue Code (I.R.C.)
                                            Section (§) 401(a).1
                                        •   Answers to miscellaneous EO, EP, and GE function
                                            questions. These questions commonly include
                                            issues such as requests to confirm tax exempt status,
                                            requests for guidance on the filing of EP and EO
                                            returns, questions resulting from notices and letters
                                            received by customers on issues related to an EP or
                                            EO return, and requests for guidance on entity
                                            changes.




                                 1
                                     I.R.C. § 401(a) (2004).
                                                                                             Page 1
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                     •    To speak to a TE/GE Division agent in another
                                          office regarding a pending determination
                                          application.
                                 The TE/GE Division CAS Quality Assurance (QA) function
                                 measures the quality of service provided to customers
                                 through the TE/GE Division CAS toll-free call site by
                                 monitoring telephone calls. During Fiscal Year (FY) 2004,
                                 the TE/GE Division CAS toll-free call site answered
                                 506,572 telephone calls and the TE/GE Division CAS QA
                                 function reported a quality rating2 of 90.4 percent for the
                                 service provided by the TE/GE Division CAS function
                                 assistors.
                                 The TE/GE Division CAS QA function reviews calls to:
                                     •    Identify errors that occurred in responding to
                                          customers’ telephone calls.
                                     •    Analyze the reasons the errors occurred.
                                     •    Identify and evaluate any error trends.
                                 In addition, the TE/GE Division CAS QA function initiates
                                 corrective action to eliminate the cause of the error and
                                 follows up to ensure the corrective action was effective.
                                 At the time of our review, the TE/GE Division CAS QA
                                 function conducted quality reviews by manually selecting
                                 sample telephone calls and evaluating the calls while they
                                 occurred. The telephone calls were selected to achieve a
                                 statistically valid sample based on a schedule developed by
                                 the IRS Statistics of Income (SOI) Division. The sample is
                                 designed with a 90 percent confidence level, a precision of
                                 +5 percent, and an expected error rate not to exceed
                                 10 percent.
                                 At the start of FY 2005, the CAS QA function implemented
                                 the Embedded Quality (EQ) effort to evaluate the quality of
                                 services provided to customers. The EQ measures are
                                 calculated based on the percentage of items addressed
                                 correctly within each of five elements: Customer Accuracy,
                                 Regulatory Accuracy, Procedural Accuracy,

                                 2
                                  Toll-free call site quality is the percentage of customers receiving
                                 accurate responses to their questions. Evaluation of accuracy measures
                                 administrative accuracy (internal) and customer satisfaction (external).
                                                                                                  Page 2
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 Professionalism, and Timeliness. The elements are defined
                                 as follows:
                                     •   Customer Accuracy is giving the correct answer with
                                         the correct resolution. “Correct” is measured based
                                         upon the taxpayer receiving a correct response or
                                         resolution to his or her case or issue, and if
                                         appropriate, whether the assistor took the necessary
                                         case actions or case disposition to provide this
                                         response or resolution.
                                     •   Regulatory Accuracy is adhering to statutory or
                                         regulatory process requirements when making
                                         decisions on taxpayer accounts or cases.
                                     •   Procedural Accuracy is adhering to internal process
                                         requirements that are not required by statute or
                                         regulation.
                                     •   Professionalism is promoting a positive image of the
                                         IRS by using effective communication techniques.
                                     •   Timeliness is resolving an issue most efficiently
                                         using proper workload management and time use
                                         techniques.
                                 The results of the TE/GE Division CAS QA function case
                                 analysis are documented on electronic review sheets called
                                 Data Collection Instruments and input to the IRS National
                                 Quality Review System. Our review focused on two of the
                                 five elements, Customer Accuracy and Regulatory Accuracy
                                 (for the two aspects Proper Disclosure and Employee
                                 Identification).
                                 This review was performed at the TE/GE Division CAS
                                 toll-free call site in Cincinnati, Ohio, in the CAS QA
                                 function during the period December 2004 through
                                 June 2005. The audit was conducted in accordance with
                                 Government Auditing Standards. Detailed information on
                                 our audit objectives, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.




                                                                                       Page 3
  The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
          the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                   Based on analysis of the telephone calls reviewed by the
The Reliability of the Telephone
                                   TE/GE Division CAS QA function during the period
Accuracy Rate Can Be Improved,
                                   November 2004 through January 2005, we determined the
and Opportunities Exist to
                                   TE/GE Division CAS QA function correctly reported all
Enhance Customer Service
                                   instances of improper disclosure, most instances
                                   (99.32 percent) of improper employee identification, and
                                   that Customer Service Representatives (CSR) used clear and
                                   appropriate language when responding to customers’
                                   telephone inquiries. However, the customer accuracy rate
                                   reported for this period was overstated by approximately
                                   6.1 percent (78.52 percent reported by the TE/GE Division
                                   CAS QA function versus 72.39 percent determined by our
                                   review; see Figure 1). The customer accuracy rate is a key
                                   method used to determine whether the TE/GE Division CAS
                                   toll-free call site is providing quality service to customers.
                                   For seven additional telephone calls, we determined CSRs
                                   could have provided enhanced customer service to callers.
                                   These seven calls do not affect the accuracy rates but
                                   present an opportunity for the TE/GE Division CAS
                                   function to improve service to customers.
                                   In addition to the accuracy rates, we determined
                                   improvements are needed to increase the effectiveness and
                                   efficiency of the TE/GE Division CAS toll-free call site
                                   operations. Specifically, the TE/GE Division CAS function
                                   should:
                                       •   Compare the actual sample results to the sampling
                                           objectives shortly after the sampling period has
                                           ended to determine if adjustments to the sampling
                                           plans are needed.
                                       •   Ensure issue codes for customers’ telephone
                                           inquiries are entered on the Aspect system.3
                                       •   Develop plans to implement program improvements
                                           resulting from customer satisfaction surveys and
                                           monitor whether the changes improved customer
                                           satisfaction.




                                   3
                                    The Aspect Automated Call Distributor’s primary purpose is to direct
                                   calls from taxpayers to IRS CSRs for assistance.
                                                                                                  Page 4
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 The actions listed above are presented in more detail later in
                                 the report.
                                 Customer accuracy rates were overstated by 6.1 percent
                                 During the period November 2004 through January 2005,
                                 the TE/GE Division CAS QA function reviewed a statistical
                                 sample of 1494 customer telephone inquiries for customer
                                 accuracy.
                                     Figure 1: Comparison of TE/GE Division CAS QA Function and
                                      Treasury Inspector General for Tax Administration (TIGTA)
                                            Assessments of Incorrect or Incomplete Responses
                                                Incorrect or       Percentage             Estimated
                                                 Incomplete        Incorrect5           Incorrect or
                                                  Response                               Incomplete
                                                per Sample                              Response for
                                                                                        Population6
                                 CAS QA
                                                      32             21.48%                29,5877
                                 Function
                                 TIGTA                37             27.61%8               38,0409
                                 Difference            5               6.13%                8,453
                                 Source: TE/GE Division CAS QA function records and TIGTA review
                                 of telephone calls.



                                 4
                                   The total number of calls reviewed was 163 total calls minus 14 calls
                                 that were transferred to another IRS division which are not used in
                                 calculating customer accuracy rates.
                                 5
                                   Percentages were rounded to two decimal places. Actual values were
                                 used in computing the estimated number of incorrect or incomplete
                                 responses.
                                 6
                                   There were 137,763 TE/GE Division customer telephone inquiries
                                 answered during this period.
                                 7
                                   The TE/GE Division CAS function confidence level is 90 percent and
                                 the sampling error is ±5.53 percent. Sampling error is the number of
                                 errors that occur because only part of the population is directly
                                 contacted.
                                 8
                                   The total number of calls reviewed by the TIGTA was 134 (163 calls
                                 minus 15 recordings that were not available at the time of our review
                                 and 14 transferred calls not used in calculating customer accuracy rates).
                                 The percentage of incorrect responses was calculated by dividing the
                                 number of incorrect responses identified by the TIGTA (37) by the total
                                 number of calls reviewed by the TIGTA (134).
                                 9
                                   Our confidence level is 90 percent and the sampling error is
                                 ±6.35 percent.
                                                                                                    Page 5
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 The five additional calls involved three EO function
                                 customers inquiring about their tax-exempt status, one EO
                                 function customer inquiring about what activities an
                                 organization can engage in prior to receiving a formal
                                 determination of tax-exempt status, and one EP function
                                 customer inquiring about abatement of a proposed penalty.
                                 In each of the five instances, the TE/GE Division CAS
                                 function CSRs did not follow established procedures or
                                 made statements that conflicted with written guidance. We
                                 could not determine why the TE/GE Division CAS QA
                                 function did not identify these additional five calls;
                                 however, we believe if it was conducting its reviews using
                                 recorded calls instead of live calls, it would have had the
                                 opportunity to review each call several times and to stop a
                                 call if it needed to research a technical issue. These 5 calls
                                 averaged 5.2 minutes in length, and 1 of the 5 contained
                                 more than 1 question by the caller. In addition, the TE/GE
                                 Division CAS QA function reviews many other attributes to
                                 determine if the telephone call is answered in compliance
                                 with regulatory statutes and internal procedures. These
                                 factors contributed to the TE/GE Division CAS QA
                                 function’s difficulty in reviewing live calls.
                                 One significant difference between the TE/GE Division
                                 CAS QA function’s review and our review was the method
                                 of listening to the sample of telephone calls. The TE/GE
                                 Division CAS QA function reviewed live calls; we reviewed
                                 134 of the 149 calls review by the QA function using the
                                 contact recording system, which is an automated recording
                                 system used widely in private industry to monitor customer
                                 contacts. In October 2004, the TE/GE Division CAS
                                 function started to use this system to record all customer
                                 calls answered. The contact recording software records the
                                 actual call, including the caller’s questions, the CAS
                                 assistor’s responses, and any time the caller is placed on
                                 hold. This technology enabled us to review the telephone
                                 calls several times to ensure we considered all of the
                                 questions and responses and allowed us to research TE/GE
                                 Division CAS function procedures and IRS publications for
                                 correct responses. TE/GE Division CAS function
                                 management advised us they are planning to use contact
                                 recording for the QA function beginning in the summer of


                                                                                        Page 6
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 2005; they had not prepared any procedures at the time of
                                 our review.
                                 CSRs can provide enhanced customer service to callers
                                 For an additional 7 of the 148 (4.7 percent) telephone calls
                                 we reviewed, the CSRs provided accurate responses to
                                 customers but could have provided enhanced service and
                                 reduced taxpayer burden. These seven calls included the
                                 following:
                                      •   Five telephone calls involved questions about how to
                                          become a tax-exempt organization and when
                                          tax-deductible contributions could be received. The
                                          CSRs could have provided enhanced service by
                                          more closely following published guidance when
                                          explaining the process for applying for recognition
                                          of tax-exempt status.
                                      •   One telephone call involved a question about
                                          whether an affiliated organization was included in
                                          the tax exemption of the national organization. The
                                          CSR could have provided enhanced service by
                                          researching IRS records to determine if the national
                                          organization had a group exemption instead of
                                          instructing the caller to check with the national
                                          organization about a group exemption.
                                      •   One telephone call involved a question about
                                          commercial software used to file some EO function
                                          returns. The CSR could have provided enhanced
                                          service if clearer guidance existed about the software
                                          referred to on the IRS web site, IRS.gov.
                                 The five customers calling for tax-exempt status did not
                                 appear to know the tax law regarding I.R.C. § 501(c)(3).10
                                 IRS publications advise that most organizations wanting to
                                 be recognized by the IRS as an I.R.C. § 501(c)(3) public
                                 charity or private foundation must file a Form 1023 within



                                 10
                                    There are three key components for an organization to be exempt
                                 from Federal income tax under I.R.C. § 501(c)(3) (2004). A
                                 not-for-profit (i.e., nonprofit) organization must be organized and
                                 operated exclusively for one or more exempt purposes, the most
                                 common of which are charitable, educational, and religious.
                                                                                                 Page 7
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 15 months of their creation.11 The TE/GE Division CAS
                                 function CSRs’ responses were technically correct in that a
                                 tax-exempt organization must file an application to receive a
                                 ruling or determination letter from the IRS recognizing its
                                 tax-exempt status. However, a customer may
                                 misunderstand that all tax-exempt organizations are required
                                 to immediately file the application and that the organization
                                 cannot conduct any activities until a determination is
                                 received, which may increase the burden on the
                                 organization. The TE/GE Division believes it is important
                                 for customers to realize that, until the IRS determines an
                                 organization is exempt from Federal income tax under
                                 I.R.C. § 501(c)(3), potential contributors do not have
                                 assurance that contributions to that organization will be tax
                                 deductible. We believe explaining when to file the
                                 Form 1023 and which organizations are not required to file
                                 may help to reduce taxpayer burden for between 1,290 and
                                 8,01712 TE/GE Division EO function customers.
                                 One tool that would benefit TE/GE Division CAS function
                                 CSRs in responding to customers consistently and timely is
                                 a probe and response guide, which would allow assistors to
                                 research and respond to common questions from customers.
                                 Similar guides were developed and used by other IRS
                                 toll-free telephone call sites starting in 1993. The guides
                                 were created to be a simple, easy-to-use tool to guide CSRs
                                 through the IRS’ complex maze of tax laws, rules, and
                                 procedures. They were designed to enable CSRs to perform
                                 their duties more precisely, correctly, and efficiently. The
                                 guides were also designed to help eliminate errors made by
                                 CSRs, as identified by managerial and quality reviewers.
                                 In June 2000 (shortly after the TE/GE Division was
                                 created), we reported13 that the TE/GE Division did not have
                                 sufficient guidelines to assist CSRs in responding to
                                 customer inquiries. We recommended the Commissioner,
                                 TE/GE Division, improve the quality of customer service by


                                 11
                                    There is an additional 12-month extension available for filing a
                                 Form 1023.
                                 12
                                    See details in Appendix IV.
                                 13
                                    Improvements to the Tax Exempt and Government Entities Division’s
                                 Telephone Operation Would Enhance Customer Service (Reference
                                 Number 2000-10-091, dated June 2000).
                                                                                              Page 8
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 completing guidelines for CSRs to use when responding to
                                 customers. In response to that report the Director, CAS,
                                 TE/GE Division, responded that the QA function staff for
                                 the TE/GE Division’s CAS call site will improve the desk
                                 guide and develop guidelines and other job aids similar to
                                 those used at other IRS division call sites. During our
                                 current audit, TE/GE Division CAS function management
                                 advised us they started developing probe and response job
                                 aids at the beginning of FY 2003 and had developed job
                                 aids covering seven topics, which have been provided to the
                                 TE/GE CSRs to answer customer inquiries. The TE/GE
                                 Division CAS function management recognized the need to
                                 develop other job aids for their CSRs. In addition, the
                                 TE/GE CAS QA function started developing a draft guide to
                                 address a trend we identified early in our review regarding
                                 customers’ inquiries about applying for 501(c)(3) exempt
                                 organization status. At the time of our review, the draft
                                 guide had not been released to the assistors.
                                 Completing the implementation of contact recording
                                 processes and developing the necessary probe and response
                                 guides for TE/GE Division CAS function assistors will
                                 enable the TE/GE Division CAS toll-free call site to
                                 improve the accuracy of responses to customers’ telephone
                                 inquiries.

                                 Recommendations

                                 1. The Director, CAS, TE/GE Division, should establish
                                    procedures for using contact recordings in the quality
                                    assurance process.
                                 Management’s Response: The Director, CAS, TE/GE
                                 Division, worked directly with the established SOI Division
                                 contacts to develop a method to use contact recording and
                                 apply both a random start and random sampling for TE/GE
                                 CAS reviews of telephone contacts for the beginning of
                                 FY 2006.
                                 2. The Director, CAS, TE/GE Division, should ensure the
                                    draft probe and response job aid, for responding to
                                    customers’ inquiries about how to apply for tax-exempt
                                    status under I.R.C. § 501(c)(3), addresses the types of


                                                                                      Page 9
  The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
          the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                       questions we identified for which enhanced customer
                                       service can be provided.
                                   Management’s Response: The Director, CAS, TE/GE
                                   Division, developed and shared with employees in
                                   August 2005 the probe and response guide (job aid) for
                                   tax-exempt application inquiries. The job aid includes
                                   information on how to obtain recognition of tax-exempt
                                   status, and which forms and publications are used by
                                   different organizations.
                                   3. The Director, CAS, TE/GE Division, should implement
                                      a process for developing probe and response guides that
                                      address the common types of questions customers have.
                                   Management’s Response: The Director, CAS, TE/GE
                                   Division, has developed several probe and response guides
                                   to address the common types of questions customers have.
                                   The development of these job aids has been and will
                                   continue to be an ongoing process. In April 2005, a former
                                   systems analyst was detailed indefinitely to the Quality staff
                                   to analyze all available data, target topics for providing job
                                   aids, and improve overall quality of work and work
                                   processes.
                                   We determined additional actions are needed to increase the
Additional Actions Are Needed to
                                   effectiveness and efficiency of the TE/GE Division CAS
Increase the Effectiveness and
                                   toll-free call site operations. Specifically, the TE/GE
Efficiency of the Customer
                                   Division CAS function should reevaluate the sample size
Account Services Toll-Free Call
                                   needed for QA function review to determine if a smaller
Site Operations
                                   sample is justified. This could result in more efficient use
                                   of resources as TE/GE Division CAS QA function
                                   reviewers may be able to review fewer telephone calls. In
                                   addition, issue codes indicating the type of customer calling
                                   and the topic of the call should be input to the system for all
                                   closed telephone calls to enable TE/GE Division CAS
                                   function management to identify trends in customers’
                                   telephone inquiries. Finally, the TE/GE Division CAS QA
                                   function should develop action plans to implement program
                                   improvements indicated by customer satisfaction surveys
                                   and monitor whether the changes resulted in improved
                                   customer satisfaction.



                                                                                          Page 10
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 Actual sample results should be periodically compared
                                 to the sampling objectives
                                 The TE/GE Division CAS QA function does not compare
                                 the actual sample results to the sampling objectives shortly
                                 after the sampling period has ended. Thus, TE/GE Division
                                 CAS function management is unable to determine if the
                                 sample size should be reevaluated. When conducting a
                                 statistical sample, it is necessary to make an assumption as
                                 to the rate of occurrence of errors in the population. Since
                                 the actual results of a sample will normally differ from the
                                 initial assumptions, it is essential that the sample results are
                                 appraised after the sampling is completed to determine if the
                                 sample results can be projected to the population with the
                                 same estimated sampling precision (e.g., +5 percent). The
                                 TE/GE Division CAS function management relies on the
                                 IRS SOI Division for statistical sampling advice and was
                                 not aware that a sample needs to be reevaluated after the
                                 results are determined.
                                 For example, the TE/GE Division CAS function samples for
                                 FYs 2004 and 2005 are based on an expected occurrence
                                 rate (error rate) of 10 percent, a 90 percent confidence level,
                                 and a sampling precision of +5 percent. During FY 2004,
                                 the actual error rates reported by the TE/GE Division CAS
                                 QA function ranged from 5.9 to 13.0 percent. Using the
                                 reported TE/GE Division telephone customer quality ratings
                                 to appraise the sample results, we determined the actual
                                 sample precision obtained ranged from 3.52 to
                                 4.91 percent, with an average of 4.12 percent for FY 2004.
                                 This is well below the precision rate of +5 percent the
                                 TE/GE Division CAS function had established. With a
                                 smaller error rate, fewer cases would have to be sampled to
                                 still maintain the precision rate of +5 percent. We estimate
                                 that, if the TE/GE Division CAS QA function had
                                 reevaluated the sample size in FY 2004 in light of the prior
                                 month’s error rate, it could have reviewed 360 (20 percent)
                                 fewer cases, which could have provided resources for other
                                 TE/GE Division CAS function programs.
                                 Conversely, for the 3-month period November 1, 2004,
                                 through January 31, 2005, the actual error rate was greater
                                 than the expected error rate, resulting in a sample precision
                                 of +5.85 percent. Because the sample precision exceeded

                                                                                        Page 11
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 the established 5 percent by almost an entire percentage
                                 point, the usefulness of the information to TE/GE Division
                                 management may be diminished. In this instance, a larger
                                 sample would have to be taken to maintain the desired
                                 precision level. Appraising the sample results provides
                                 essential information about whether the sampling plan is
                                 achieving its objectives and whether resources are being
                                 effectively used. Our discussions with IRS SOI Division
                                 personnel indicated they agree actual precision rates should
                                 be computed after the end of a sampling period.
                                 The TE/GE Division CAS function should ensure issue
                                 codes are entered for customers’ telephone inquiries
                                 The TE/GE Division CAS function established issue codes
                                 to be able to trend the different types of customer inquiries.
                                 This assists TE/GE Division CAS function management in
                                 identifying new or frequent customer inquiries (which could
                                 be an indicator of the need for additional training) as well as
                                 other types of problems, such as erroneous notices generated
                                 by TE/GE Division customer returns processing. Examples
                                 of the different issue codes include one code that is used
                                 when an EO function customer calls about the status of its
                                 Form 1023 and a different code that is used when an EO
                                 function customer calls about a penalty notice. Although
                                 TE/GE Division CAS function procedures instruct the
                                 assistor to input to the Aspect system the issue code most
                                 applicable to the call when closing a telephone call, issue
                                 codes are frequently not entered since the entering of issue
                                 codes is not part of the quality review evaluation process for
                                 CSRs. In FY 2004, 102,665 (21.27 percent) of the TE/GE
                                 Division customer telephone inquiries were not coded for an
                                 issue. This problem continued in the first quarter of
                                 FY 2005, with 39,461 (31.35 percent) of the TE/GE
                                 Division customer telephone inquiries not having an issue
                                 code.
                                 The correct and consistent use of issue codes is important to
                                 gauge the impact of events on the TE/GE Division CAS
                                 toll-free call site operations. For example, on Friday,
                                 October 22, 2004, numerous notices were sent out to
                                 various tax-exempt organizations. By Monday,
                                 October 25, 2004, the TE/GE Division CAS function had
                                 added two new issue codes to assess the impact of these

                                                                                       Page 12
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 notices on TE/GE Division CAS toll-free call site
                                 operations. In FY 2004, all EO function customer telephone
                                 inquiries regarding a notice inquiring about filing a return
                                 were coded under a single issue code. In October 2004, EO
                                 function customers calling about the same notice were
                                 separated into two issue codes–one for customers receiving
                                 a first notice about filing a return and one for customers
                                 receiving a fourth notice about filing a return. If some of
                                 the uncoded calls in FY 2004 and first quarter of FY 2005
                                 related to these notices, TE/GE Division CAS function
                                 management would not have a complete picture of the
                                 impact of these telephone inquiries on TE/GE Division CAS
                                 toll-free call site operations. Calls that are not coded for an
                                 issue could negatively affect TE/GE Division CAS function
                                 management’s ability to identify trends, training needs, and
                                 systemic problems.
                                 Plans are needed to implement changes recommended
                                 by customer satisfaction surveys
                                 During FY 2004, the Pacific Consulting Group determined
                                 that the TE/GE Division CAS function should work on two
                                 primary areas:
                                     •   Reduce the amount of time it takes to complete a
                                         customer’s call once the customer gets through to a
                                         TE/GE Division CAS function assistor.
                                     •   Improve issue resolution.
                                 We determined that the time to complete a call is increasing
                                 and that customers and TE/GE Division employees who
                                 administer the customer satisfaction survey have different
                                 opinions about whether a customer’s issue was resolved by
                                 the end of the telephone call.
                                 The TE/GE Division contracts with the Pacific Consulting
                                 Group to conduct customer satisfaction surveys. This
                                 research is part of the IRS agency-wide initiative to monitor
                                 and improve taxpayer satisfaction with the service provided.
                                 Some of the objectives of this study are to identify areas in
                                 which TE/GE Division CAS toll-free call site staff and
                                 managers can improve customer service and to track
                                 progress in improving customer satisfaction with TE/GE
                                 Division CAS toll-free call site service.

                                                                                        Page 13
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 In each quarter of FY 2004, the consultant recommended
                                 the TE/GE Division CAS function focus improvement on
                                 the time it takes to complete a customer’s call once the
                                 customer gets through to an assistor. From National Quality
                                 Review System data for TE/GE Division customer
                                 telephone inquiries reviewed during FY 2004, we
                                 determined the average time for an assistor to gather
                                 information and respond to the customer was 6.4 minutes.
                                 The results from the first 4 months of FY 2005 showed
                                 telephone calls were averaging much longer, with the
                                 average being 10.3 minutes compared to an average of
                                 7.1 minutes for the same period in FY 2004.
                                 In addition, the consultant advised that TE/GE Division
                                 CAS function management should strive to improve issue
                                 resolution. The customer and the TE/GE Division CAS
                                 function quality analyst who monitors the call for quality
                                 control and sampling purposes often hold different opinions
                                 about whether the issue is resolved. These differing
                                 perspectives can include instances where the customer
                                 thinks the issue is resolved, but the monitor thinks it is not
                                 resolved, and instances where the customer thinks the issue
                                 is not resolved, but the monitor thinks the issue is resolved.
                                 While data showed fewer customers disagreed about issue
                                 resolution in the first quarter of FY 2005 when compared to
                                 any quarter in FY 2004, the consultant continued to advise
                                 that TE/GE Division CAS function management focus
                                 improvement on issue resolution.




                                                                                       Page 14
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                   Figure 2: Percentage of Calls in Which Customer and Monitor
                                                  Disagreed on Issue Resolution

                                                50%
                                                45%
                                                40%
                                                35%
                                   Customer and 30%
                                     Monitor    25%
                                     Disagree 20%
                                                15%
                                                10%
                                                 5%
                                                 0%
                                                      FY 2004 FY 2004 FY 2004 FY 2004 FY 2005 Average
                                                        1st     2nd     3rd     4th     1st
                                                                          Quarter


                                 Source: TE/GE Division Toll-Free National Report.

                                 The TE/GE Division CAS QA function reviews the
                                 customer satisfaction survey and develops tips or ideas
                                 intended to improve customer satisfaction. These tips are
                                 distributed to TE/GE Division CAS function managers, and
                                 it is suggested by the QA function that the tips be shared
                                 with CSRs. However, because the TE/GE Division CAS
                                 function does not have established procedures for the use of
                                 customer satisfaction surveys and for monitoring the survey
                                 results for any program improvements over time, the
                                 managers are not required to take any actions regarding the
                                 suggested tips. While the current process may provide more
                                 awareness of service for which TE/GE Division customers
                                 are less than satisfied, it may not result in improved
                                 customer satisfaction. We believe a more formal process,
                                 which includes developing action plans to address issues
                                 raised in the customer satisfaction surveys and monitoring
                                 the survey results over time, would provide better assurance
                                 of increasing customer satisfaction.
                                 The IRS Communications and Liaison Division developed a
                                 guide entitled Using Customer Satisfaction Survey Data to
                                 Develop Improvement Plans. This guide describes a series
                                 of steps for this process, including facilitating a group
                                 meeting to understand the data, determine priorities,
                                 consider alternative solutions, and develop implementation
                                 plans to make better use of customer satisfaction data.
                                 Another step in this process is developing an action plan
                                                                                              Page 15
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 that is specific, measurable, achievable, realistic, and timely.
                                 The action plan should identify the steps to be taken to
                                 improve the customer service, the person(s) responsible for
                                 implementing those steps, a timeline for completing each
                                 action, and a method for monitoring whether the changes
                                 resulted in improved customer satisfaction. A process that
                                 includes a specific and measurable plan may enable TE/GE
                                 Division CAS function management to focus on specific
                                 improvements to customer satisfaction survey needs.

                                 Recommendations

                                 4. The Director, CAS, TE/GE Division, should establish a
                                    coordinated process with the SOI Division to compare
                                    the actual sample results to the sampling objectives
                                    shortly after the sampling period has ended, to determine
                                    if the sample size should be reevaluated for future
                                    periods.
                                 Management’s Response: The Director, CAS, TE/GE
                                 Division, will coordinate with the SOI Division on a
                                 monthly basis to compare the actual sample results to the
                                 sampling objectives to determine if the sample needs to be
                                 adjusted (up or down) for the next sampling period to stay
                                 within the 5 percent precision margin.
                                 5. The Director, CAS, TE/GE Division should ensure issue
                                    codes are entered for customers’ telephone inquiries.
                                 Management’s Response: TE/GE Division CAS function
                                 managers will reemphasize the input of issue codes for use
                                 in establishing training needs and for providing helpful
                                 feedback to other functions within the TE/GE Division. If
                                 an employee’s issue code input is low, the manager now
                                 provides written direction to code calls appropriately. The
                                 managers receive and review reports on the input of issue
                                 codes on a weekly basis. Managers are directed to discuss
                                 the results of these reports with their employees, as needed.
                                 6. The Director, CAS, TE/GE Division, should evaluate
                                    the customer satisfaction survey results, develop action
                                    plans to improve service to customers, and monitor
                                    whether the changes resulted in improved customer
                                    satisfaction in future surveys.

                                                                                        Page 16
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                 Management’s Response: The Director, CAS, TE/GE
                                 Division, has revised the scheduling of employee direct time
                                 and implemented new menu options on the toll-free line to
                                 respond to customer satisfaction results. As an ongoing
                                 initiative, the TE/GE Division CAS function forwards
                                 suggestions to the TE/GE Division Customer Education and
                                 Outreach offices for topics or additional information to be
                                 put on the web (irs.gov) for enhancing web usage and
                                 possibly reducing the call volume, thereby improving
                                 customer satisfaction. The CAS uses customer satisfaction
                                 results during the development of the annual training plan
                                 and during workshops.




                                                                                     Page 17
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                                                                                  Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objectives of this audit were to determine whether the Tax Exempt and Government
Entities (TE/GE) Division Customer Account Services (CAS) Quality Assurance (QA) function
provides reliable customer accuracy rates and whether the TE/GE Division CAS function
effectively uses the quality assurance process as a basis for measuring and improving program
effectiveness. In addition, we determined whether TE/GE Division CAS function CSRs
complied with the statutory requirements to properly identify themselves and to prevent
unauthorized disclosure when responding to customers’ telephone inquiries.
To accomplish these objectives, we:
I.      Determined whether TE/GE Division CAS function CSRs provided accurate and timely
        responses that complied with applicable disclosure and identification statutes by
        evaluating the 1631 TE/GE Division customer telephone inquiries selected for QA
        function review during the period November 1, 2004, through January 31, 2005.
        Specifically, we:
        A. Determined whether TE/GE Division CAS function CSRs properly identified and
           addressed the customer’s issue(s), including the total number of questions asked, the
           number of questions answered correctly, and the number of questions answered
           incorrectly.
        B. Determined whether TE/GE Division CAS function CSRs explained the process or
           actions taken and confirmed that the customer understood the issue covered.
        C. Determined whether TE/GE Division CAS function CSRs used clear and appropriate
           language.
        D. Reviewed Data Collection Instruments and compared TE/GE Division CAS QA
           function personnel determinations of whether the customers received accurate
           responses with the results from the Treasury Inspector General for Tax
           Administration’s (TIGTA) review of the same cases.




1
  The total number of calls included in the TE/GE Division CAS QA function calculation of the customer telephone
inquiry accuracy rate was 149 (163 total calls reviewed minus 14 calls that were transferred to another Internal
Revenue Service division). The Treasury Inspector General for Tax Administration review included the 14 calls and
determined that the transfer and the QA function’s review of these calls were in accordance with CAS procedures.
The total number of calls included in our calculation was 134 (163 total calls minus 14 transferred calls and
15 recordings that were not available at the time of our review). There were 137,763 TE/GE Division customer
telephone inquiries answered during this period.
                                                                                                        Page 18
 The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
         the Effectiveness and Efficiency of Call Site Operations Can Be Improved

          E. Determined whether TE/GE Division CAS function CSRs identified themselves by
             name and unique identifying number, as required by the Internal Revenue Service
             Restructuring and Reform Act of 1998.2
          F. Determined whether the customer’s authorization to receive information was properly
             determined in accordance with applicable statutes or TE/GE Division procedures.
          G. Determined the length of the call and whether TE/GE Division CAS function CSRs
             handled the call timely by directing the conversation and minimizing extraneous
             dialog.
 II.      Determined whether the TE/GE Division CAS function effectively implemented its
          sampling plan by interviewing TE/GE Division CAS function personnel and reviewing
          applicable documentation regarding the sample selection process. Specifically, we:
          A. Interviewed TE/GE Division CAS function personnel and reviewed applicable
             documentation to determine the sampling methodology.
          B. Reviewed documentation of the sample selected during Fiscal Year (FY) 2004 and
             the first quarter of FY 2005 to determine whether the sample selections followed the
             sampling plan.
          C. Consulted with the TIGTA statistician to determine whether the samples reviewed by
             the TE/GE Division CAS QA function during FY 2004 and the first quarter of FY
             2005 were statistically valid.
III.      Determined whether the TE/GE Division CAS function uses the quality assurance
          process for customers’ telephone inquiries as a basis for measuring and improving
          program effectiveness. Specifically, we:
          A. Interviewed TE/GE Division CAS function personnel and reviewed applicable
             documentation for FY 2004 and the first quarter of FY 2005 to determine whether:
               1. The data collected identified defects resulting from call site, systemic, and
                  taxpayer actions or inaction.
               2. Sufficient data were collected and analyzed to determine the reason(s) for defect
                  occurrence.
               3. Sufficient data were collected and analyzed to identify defect trends.
          B. Interviewed TE/GE Division CAS function personnel and reviewed applicable
             documentation of corrective actions initiated from the quality assurance process for


  2
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
  16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).



                                                                                                               Page 19
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

          FY 2004 and the first quarter of FY 2005 to determine whether the actions have
          affected the accuracy of responses.
       C. Analyzed customer satisfaction surveys for FYs 2000 through 2004 to determine
          whether there were trends regarding the accuracy of responses identified by the
          surveys and whether actions were taken as a result of feedback from the surveys.




                                                                                       Page 20
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
James V. Westcott, Audit Manager
Gregory W. Holdeman, Lead Auditor
Cheryl Medina, Senior Auditor
Michael R. Van Nevel, Senior Auditor
Donald Martineau, Auditor




                                                                                      Page 21
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner, Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Customer Account Services, Tax Exempt and Government Entities Division
SE:T:CAS
Chief Council CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 22
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                                                                                 Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
     •   Reliability of Information – Actual; 6.13 percent difference between the Treasury
         Inspector General for Audit (TIGTA) and Internal Revenue Service assessment of
         inaccurate or incomplete responses (see page 4).
Methodology Used to Measure the Reported Benefit:
During November 2004 through January 2005, the Tax Exempt and Government Entities
(TE/GE) Division Customer Account Services (CAS) Quality Assurance (QA) function reviewed
a statistical sample of 1491 customer telephone inquiries for customer accuracy. We reviewed
1342 of these calls and compared our results with TE/GE Division CAS QA function
determinations of whether the customers received complete and accurate responses to their
inquiries. We identified five additional TE/GE Division customers that did not receive a
complete and accurate response to their telephone inquiry. The five additional calls involved
three Exempt Organizations (EO) function customers inquiring about their tax-exempt status,
one EO function customer inquiring about what activities an organization can engage in prior to
receiving a formal determination of tax-exempt status, and one Employee Plans function
customer inquiring about abatement of a proposed penalty. The customer accuracy rate reported
for this period was overstated by approximately 6.1 percent (78.52 percent reported by the
TE/GE Division CAS QA function versus 72.39 percent determined by our review; see Figure 1
on page 5). The customer accuracy rate is a key method used to determine whether the TE/GE
Division CAS toll-free call site is providing quality service to customers.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 4,655 taxpayer accounts affected (see page 4).



1
  The total number of calls included in the TE/GE Division CAS QA function calculation of the customer telephone
accuracy rate was 149 (163 total calls reviewed minus 14 calls that were transferred to another IRS division which
are not used in calculating customer accuracy rates). There were 137,763 TE/GE Division customer telephone
inquiries answered during this period.
2
  The total number of calls reviewed by the TIGTA to calculate the customer accuracy rate was 134 (163 calls minus
15 recordings that were not available at the time of our review and 14 transferred calls not used in calculating
customer accuracy rates).

                                                                                                         Page 23
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

Methodology Used to Measure the Reported Benefit:
During November 2004 through January 2005, we reviewed 1483 of the TE/GE Division
customers’ telephone inquiries for opportunities for the TE/GE Division CAS Customer Service
Representatives (CSR) to provide enhanced customer service. We determined that for 5 of the
148 (3.4 percent) telephone calls, the TE/GE Division CAS function assistors provided accurate
responses to customers but could have provided enhanced service and reduced taxpayer burden.
The five telephone calls involved questions about how to become a tax-exempt organization and
when tax-deductible contributions could be received. The TE/GE Division CAS function
assistors could have provided enhanced service by more closely following published guidance
when explaining the process for applying for recognition of tax-exempt status.
The TE/GE Division CAS QA function selected the sample of telephone calls based on a
schedule developed by the Internal Revenue Service Statistics of Income Division to achieve a
statistically valid sample. The sample was designed with a 90 percent confidence level, a
precision of +5 percent, and an expected error rate not to exceed 10 percent.
We projected the 3.4 percent of calls for which enhanced service could have been provided to the
population of telephone calls answered by TE/GE Division CAS function assistors during this
period (137,763) and determined the range of customers who were calling about becoming a
tax-exempt organization. Based on the results of our sample, we estimate the TE/GE Division
CAS function assistors could have provided enhanced service to these customers.
We determined the number of customers affected by using the United States Army Audit Agency
Statistical Analysis System formula for sample precision. Based upon our sample size of 148,
from a population of 137,763, we estimate that 4,655 customers (3.3784 percent) could have
received enhanced service if the TE/GE Division CAS function assistors had more closely
followed published guidance when explaining the process for applying for recognition of
tax-exempt status.
The outcome measure is determined as follows:
3.3784 percent x 137,763 (population of customer telephone inquiries) = 4,655 customers.




3
 The total number of calls reviewed by the TIGTA for opportunities for enhanced service was 148 (163 calls minus
15 recordings that were not available at the time of our review).



                                                                                                        Page 24
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved

                                                                          Appendix V


                    Management’s Response to the Draft Report




                                                                                Page 25
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved




                                                                                Page 26
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved




                                                                                Page 27
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved




                                                                                Page 28
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved




                                                                                Page 29
The Tax Exempt and Government Entities Division’s Toll-Free Call Site Accuracy Rate and
        the Effectiveness and Efficiency of Call Site Operations Can Be Improved




                                                                                Page 30
